HHS/OIG, Audit -"Review of Family Planning Service Costs Claimed by Maryland's Medicaid Managed
Care Program,"(A-03-03-00218)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Family Planning Service Costs Claimed by
Maryland's Medicaid Managed Care Program," (A-03-03-00218)
May 26, 2005
Complete
Text of Report is available in PDF format (312 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Maryland claimed family planning service
costs under its Medicaid managed care program in accordance with its methodology and Federal statutes,
regulations and guidelines. Maryland did not claim family planning service costs in accordance with
its methodology.  Maryland included ineligible costs in its family planning factor calculation.  As
a result, between July 2000 and March 2004, Maryland overstated its claims of family planning service
costs by $2.9 million.  By claiming these costs at the enhanced family planning rate of 90 percent,
rather than its regular Federal share of 50 percent, Maryland received $228,643 in unallowable Federal
reimbursement.  We recommended that Maryland refund the Federal share of $228,643, and apply the
audited family planning factor of 1.33 percent for claims after March 2004 and refund the Federal share
of any overpayment.  Maryland concurred with our recommendations.